               Report on Audit of Forward Pricing Indirect
               Rates and Facilities Capital Cost of Money
                                 Factors

                                February 2004

                     Reference Number: 2004-1C-050




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                          February 18, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Report on Audit of Forward Pricing Indirect Rates and Facilities
                              Capital Cost of Money Factors (Audit #20041C0219)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s
       November 3, 2003, proposal for indirect forward pricing rates for Fiscal Years (FY) 2004
       through 2006 and facility capital cost of money factors for FY 2004. The purpose of the
       examination was to determine if the contractor’s proposed forward pricing rates and
       factors are reasonable.
       The DCAA made adjustments to the contractor’s indirect expense rate forecast for
       additional labor dilution, legal expenses, audit fees, and internal growth assumptions.
       However, the DCAA did not adjust the contractor’s proposed facility capital cost of
       money factors.
       The DCAA opined, subject to the qualification noted below, that the cost or pricing data
       submitted by the contractor are inadequate in part. The inadequacies are considered to
       have limited impact on the subject proposal. The proposal was not prepared in all
       respects in accordance with applicable Cost Accounting Standards (CAS) and
       appropriate Federal Acquisition Regulation provisions. However, the impact of the
       noncompliance is considered relatively insignificant. Because the noncompliances and
       inadequacies are considered insignificant, the DCAA believes the proposal is an
       acceptable basis for negotiation of fair and reasonable indirect forward pricing rates and
       facility cost of money factors.
       The DCAA qualified its audit report because it was unable to determine the impact that
       a CAS 409 noncompliance would have on both cost of money calculations and
                                           2




projected depreciation. This CAS 409 noncompliance relates to the lack of studies
concerning useful lives and residual values on capitalized assets.
The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
